Department of Health and Hfiman Services

        OFFICE OF
   INSPECTOR GENERAL




Coverage of Enteral Nutrition Therapy:
     Medicare and Other Payers
                      OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Offke of Audit SeMces, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Sax&s (OAS) provides all auditing setices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS program- and/or its ~antees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS
                                                ..
The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVMX.JATION AND INSPECHONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office, under the direction of Robert A. Vito, Acting Regional Inspector General.
Project staff included:

PHILADELPHIA REGION                                                 HEADQUARTERS

Donna M. Millan, Lead Program AnaZyst               Jennifer AntiCo, Program Spcialist
Linda M. Ragone, Program Analyst
Cynthia Hansford, Rogram Asszkant

Nancy J.W. Lewis, PharmD, MPH, Consultant





                                                               %
                                                             . ..
Department of Health and Hfiman Services

           OFFICE OF
   INSPECTOR GENERAL




Coverage of Enteral Nutrition Therapy:
     Medicare and Other ‘Payers
                           .
              EXECUTIVE                         SUMMARY

PURPOSE

This report describes and compares Medicare and non-Medicare       payers’ coverage
policies for enteral nutrition therapy.

BACKGROUND

Enteral nutrition therapy provides liquid nourishment directly to the digestive tract of
a patient who cannot ingest an appropriate amount of calories to maintain an
acceptable nutritional status.

Medicare classifies enteral nutrition therapy under the prosthetic device benefit.
Coverage is only for therapy required due to the absence or malfunctioning body part
which normally permits food to reach the digestive tract.

The Health Care Financing Administration (HCFA) administers the Medicare
program. In an effort to aid the Durable Medical Equipment Regional Carriers’
revision and standardization of Medicare coverage policy, HCFA requested the Office
of Inspector General to sulvey other payers to determine their coverage policies for
enteral therapy.

We surveyed Medicare risk-contracted and private health maintenance organizations,
facilities from Department of Veterans Affairs, Medicaid State agencies, commercial
payers, and Blue Cross/Blue Shield associations.

FINDINGS

MOST PAYERS SURVEYED             ROUTINELY      COVER ENTERAL          NUTRITION
THERAPY.

Twenty out of 25 different payers routinely cover enteral nutrition therapy.   The five
payers who do not would only cover it under extraordinary circumstances.

COMPARED TO OTHER PAYERS, MEDICARE’S COVERAGE
REQWNWENTS     ARE SIMILAR IN SOME AREAS AND MORE
Restrictive IN OTHERS.

Both Medicare and other-payers routinely cover enteral nutrition therapy when the
patient requires tube feeding, when enteral nutrition is the patient’s exclusive source of
nutrition, and if the patient has an anatomical or physiological malfunction of the
gastrointestinal tract. Both types of payers also require a certificate of medical
necessity or a prescription for coverage. Like Medicare, about half of the other
payers do not routinely cover cognitive disorders such as Alzheimer’s Disease.


                                            i
ldedicare’s coverage requirement is based on the malfunction of the gastrointestinal
tract. Medical documentation     must then prove the beneficia~’s need for enteral
nutrition therapy meets this criteria. Although some other payers classify enteral
therapy as a prosthetic device as Medicare does, these other payers still provide
coverage for patient’s with a functioning gastrointestinal tract and special nutrient
needs; Medicare does not. Medicare guidelines require specific documentation         for
category of nutrient product and caloric intake, and the use of pumps, while other
payers do not.


We hope the issues resulting from this report answer HCFA’S request for information
on other payers’ coverage policies for enteral nutrition therapy, and aid HCFA in their
effort to revise and standardize Medicare policy.

Our work is continuing. We will review how other payers price enteral nutrition
therapy products and compare their units of pricing, payment mechanisms, and
supplier networks to Medicare’s policy.




                                             ii
                   TABLE                     OF CONTENTS

                                                                                                                PAGE


EXECUTIVE       SUMMARY



INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6



 ●Most   Payers CoverEnteral           Therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..6



 ● Medicare’s   PolicyIs Similar To Other Payers                     . . . . . . . . . . . . . . . . . . . . . . ...7




CONCLUSION         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12

                          INTRODUCTION

PURPOSE

This report describes and compares Medicare and other payers’ coverage policies for
enteral nutrition therapy (ENT).

BACKGROUND

Me&are    covers ENT underthe PartB prostheticdevice benejit

Enteral nutrition therapy (ENT) is a means to provide nourishment directly to the
digestive tract of a patient who cannot, for a variety of reasons, ingest an appropriate
amount of calories to maintain an acceptable nutritional status. The beneficiary
consumes a liquid nutrient formula which can be administered one of three ways:

  ●    nasogastric tube: inserted through the nostril,

  .	   jejunostomy tube: inserted through a surgical incision leading to the small
       intestine,

  ●    gastrostomy tube: inserted through a surgical incision leading to the stomach.

The Medicare guidelines classi~ ENT under the prosthetic device benefit because
coverage is only for therapy required due to an absent or malfunctioning body part
which normally permits food to reach the digestive tract.l

Medicare covers ENT for conditions based on the malfunction of the gastrointestinal
tract. According to Medicare guidelines, ENT is reasonable for:

  ●    a beneficiary with a non-functioning gastrointestinal tract, who cannot maintain
       appropriate weight due to disease or non-function of the structures that
       normally permit food to reach the digestive tract, or

  ●    a beneficiary with a disease of the small bowel that precludes digestion and
       absorption of sufficient nutrients and necessitates tube feeding to maintain the
       appropriate weight.

Many medical conditions can cause malfunction of structures so as to preclude normal
ingestion of food. Examples of conditions that would quali& for coverage are head
and neck cancer with reconstructive surgery and central nervous system disease which


     lMedicare Carrier’s Manual, section 2130 and Medicare Coverage Issues Manual,
section 65-10.


                                             1
leads to interference with the neuromuscular mechanisms of digestion so severe as to
prohibit oral feeding. Medicare does notallow coverage for beneficiaries witha
normally functioning gastrointestinal tract whose only need for ENT stems from lack
of appetite or an organic brain syndrome2.

Me&are nquiies-h           dkummdm         fix   the medical necessity
                                                                    of ENT


Under Medicare guidelines, all enteral nutrition claims submitted to the Durable
Medical Equipment Regional Carrier (DMERC) must be approved on an individual
case-by-case basis. Each claim must have a certificate of medical necessity (CMN)
signed by the attending physician and sufficient medical documentation (such as
medical records and clinical findings from the attending physician) to permit an
independent conclusion that the beneficiary meets the requirements of the prosthetic
device benefit. A CMN must be renewed three, nine, and 24 months after the initial
CMN. A new CMN is additionally required under these circumstances:

  s    when there is a change in the category of nutrients or calories prescribed,

  ●    a change horn enteral to parenteral (intravenous) therapy,

  ●    or when there is a need for a pump.


If a documented need exists for ENT, Medicare will cover related supplies, equipment,
and nutrients. Additional documentation is needed for the use of a pump to
administer ENT. Only services rendered by a physician or by a non-physician
professional whose services are incident to a physician’s semice are covered.

Mdicare @deli&s&o                           fcucdtzin types
                         requirejusiijicatbra             of ENTproductr.


Medicare classifies ENT products into six categories based on the composition and
source of ingredients in each product. Category I products are the most commonly
used; they consist of natural intact protein or protein isolates. The guidelines state
that if a physician prescribes a formula from Categories III through V, additional
documents must justify the reason for prescribing a higher category formula.
According to the policy, if the request cannot be substantiated, payment is based on
the allowance for the least costly alternative. The categories of products, their
composition and indications for use are listed in the table on the following page:




    2Any mental disorder, such as senile dementia or Alzheimer’s disease, resulting
from or associated with organic changes in brain tissue.


                                            2
   MEDICARE’S CLASSIFICATION OF ENTERAL NUTRITION PRODUCTS
            BY COMPOSITION AND INDICATIONS FOR USE




               Category I            semi-synthetic intact protein/protein
                                  isolates which are standard products for
                                               most patient use


         F    Categoxy III
                                    intact protein/natural protein isolates
                                 that are low sodium, high calorie products
                                   hydrolyzed amino acid formula used for
                                   patients unable to absorb intact protein
                                                   isolates
              Category IV        formulas designed to meet metabolic needs
                                  associated with specific disease conditions
               Category V             individual nutrition components (fat,
                                     protein, carbohydrates) that allow the
                                         making of customized formulas
              Category VI             formulas with high protein content

l'7ae DurablkiUedME@pmentRegionalc         i-wimpnXeSEA7Tcti.

The Health Care Financing Administration (HCFA) administers the Medicare Part B
program. In October 1993, HCFA designated four DMERCS to process claims for
durable medical equipment, prosthetics, orthotics, and supplies, including ENT. The
DMERCS replace two previous carriers who had processed ENT claims. Each
DMERC is responsible for its specific region of the country and processes claims
originating from its respective geographic region. The HCFA has been active in
aiding the DMERCS in transitioning to their new responsibility for ENT. The HCFA
has also used this transition period to reexamine coverage policies and to standardize
coverage decisions. On-going meetings led by HCFA have included discussions among
DMERC representatives and nutritional experts.

To aid the DMERCS in their evaluation and application of Medicare coverage policy,
HCFA requested the Office of Inspector General to survey other payers about their
ENT coverage policies. The request included gathering information related to criteria
and documentation required for coverage. The HCFA also specifically expressed
interest in information on the coverage of products designed for patients with special
metabolic conditions.
METHODOLOGY

Using a standardized data collection instrument, we obtained information on each
payer’s coverage criteria, documentation requirements, and product information. We
also asked respondents to enclose a copy of their medical review guidelines and/or
coverage policies for additional review.

Individuals from each HCFA bureau reviewed our instrument and provided insight on
appropriate questions and pertinent issue areas. We also pre-tested the questions with
two payers not in our sample. We consulted with DMERC medical directors and their
medical review staff as well. Each offered input on the questions and issues we should
address.

We sulveyed Medicare contractors to assess payment policies for beneficiaries under
fee-for-service claims and services under managed care arrangements. Non-Medicare
payers include the Department of Veterans’ Affairs (VA), Medicaid agencies, and
private payers. The largest payers were selected from each group (with the exception
of the VA facilities which are selected randomly in the Medicaid States in the sample).

We surveyed a total of 34 payers and received responses from 28 respondent.      Our
analysis is based on the information from these payers:




                                                  ●four Department of
                                                 Veterans Affairs (VA)
                                                        facilities

                                                   five Medicaid State
                                                        agencies
                        ●four DMERCS
                                                   ●four private HMOs
                    ● four Medicare risk.
                    contracted health                 ●three private
                maintenance organizations        indemnity/commercial
                          (HMos)                        insurers

                                                  four Blue Cross/Blue
                                                  Shield Associations
                                                        (BC/13S)

Although, not all payers responded to all our questions, we grouped valid responses
into pertinent coverage issues such as benefit classification, patient condition,-and
documentation. We report how other payer’s policies differ or correspond with
Medicare’s policies for ENT.



                                            4

For the purposes of our analysis, we designate the four DMERCS as representing one
payer, Medicare. Where the Medicare risk-contracted HMOS’ coverage policies are
similar to that of the DMERCS, we also designate the Medicare risk-contracted HMOS
as Medicare. We also distinguish any issues where Medicare risk-contracted HMOS
differ in their application of Medicare policy. These risk-contracted HMOS must
provide, at minimum, what Medicare guidelines require for coverage; Medicare risk-
contracted HMOS can also be more generous in benefit coverage.

We gathered and analyzed this information ffom August through early November,
1994. This inspection was conducted in accordance with the Quali~ Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




                                         J
                                FINDINGS€

MOST PAYERS SURVEYED ROUTINELY COVER ENTERAL NUTRITION
THERAPY BUT CLASSIFY THE BENEFIT SEVERAL DETERENT WAYS.

Twenty out of 25 different payers routinely cover enteral therapy, while five payers do
not. Those five payers gave different reasons for not routinely covering it. Two Blue
Cross/Blue Shield (BC/BS) payers stated that it is not a standard benefit in their plans.
One Medicaid payer only covers ENT for individuals under the age of 21 because the
cost of ENT is seen as prohibitive. One Veterans’ Affairs (VA) payer only covers
persons on an inpatient basis. The fifth, a private indemnity payer, stated that while it
covers the supplies and pumps, it does not cover the nutritional product since it is
considered food.

These five payers would cover ENT under exceptional circumstances. For example,
the private indemnity payer would cover the product where it is mandated by State
law. The BC/BS payers provide coverage if it were included in a specific group
contract. The inpatient VA payer would provide ENT on an outpatient basis if the
individual were indigent and if ENT were the patients’s sole source of nutrition.

According to Medicare, ENT is a prosthetic device; however, other payers differ in
their classification of ENT. Medicare’s classification of ENT as a prosthetic device
benefit comes from the basis that ENT serves the function that an otherwise normal
gastrointestinal structure would perform. Different classifications of ENT may result
from other medical reasoning. Table 1 below illustrates how payers classi% the ENT
benefit.

                        HOW PAYERS CLASSIFY ENT AS A BENEFIT€




                                   4/18
 41
                                                   5/18           6/18          1/18€
                    “18
    %is term includes the following classifications: “major medical benefit,” “under
the benefit plan,” “as part of total care,” and “expendable medical supply.”



                                           6€
Three Medicare risk-contracted HMOS designate ENT as a prosthetic device benefit.
Three other payers put ENTunder prosthetic device aswell. Five non-Medicare
payers grouped ENT as a pharmaceutical benefit, while six place ENT in the durable
medical equipment (DME) category. One Medicare HMO also classifies ENT under
general durable medical equipment. The remaining payers cover ENT as a major
medical/standard benefit or as nutrition.

Note that the 18 other payers include the Medicaid agency who only covers children,
the inpatient VA facility, and the private indemnity/commercial payer who only covers
the pumps and supplies, not the product. It does not contain the two BC/13S payers
who do not routinely cover ENT. In addition, four other (non-Medicare) payers use
dual classifications for the ENT benefit. These four specifically differentiate between
the actual ENT product and the supplies and pumps to administer the nutrition. In
this case, typically, the ENT product is a pharmaceutical benefit, while the supplies
and pumps are covered as DME or as a prosthetic device.

Medicare and other payers use similar strategies to formulate their coverage policies.
In defining their coverage policy for ENT, payers employed a combination of common
strategies to compose their ENT policies, including consultation with nutritional
experts, individual providers and manufacturers, and review of scientific literature.

COMPARED TO OTHER PAYERS, MEDICARE’S COVERAGE
REQUIWMmTS ARE MORE RESTRICI’IV EINSOMEAREASAND
SIMILAR
     INOTHERS.
While almost all payers require their beneficiaries to have specific health conditions
for ENT coverage, the Medicare guidelines dictate that ENT must serve the purpose
of a prosthetic device, which is to replace a malfunctioning body part.

PatientChditiom    and ctnwmmwa
                         “

As Table 2 on the following page illustrates, both Medicare and other payers routinely
cover ENT under three circumstances: 1) when the patient requires tube feedings, 2)
when ENT is the patient’s exclusive source of nutrition, and 3) when the patient has
an anatomical or physiological malfunction of the gastrointestinal tract. For these
three circumstances, both Medicare and other payers policies’ appear to be similar.




                                           7

                     clRcuMsrANcEs WHERE MEDICARE COVERS ENT€
                           AND HOW OTHER PAYERS RESPOND€




                       *.:?..’*.:,.’.


                                                 ...!
                                        *.:<W.W+/:.
                       ~-;; ,.....................
                                . ..
                                                         COVERED           16/17



The seventeen other payers include the inpatient VA facility and the Medicaid State
agency who serves only children. This figure does not include the two BC/BS payers
who do not routinely cover ENT and a private indemnity payer who only covers
pumps and supplies, not the product.

The table below shows circumstances where payers and non-Medicare payers differ in
their coverage policies. Medicare does not cover ENT that is orally ingested, while




                     :@:::: NOT COVERED                      0/4   7/17
                     ~;;’ :
                       .......
      ;;.~~~;;,;:,;.~:s?       NOTCOVERED                    2J4   13/17
                         ...

For some non-Medicare payers, patient diagnosis is sufficient to warrant routine
coverage of ENT, while other non-Medicare payers will initially only cover ENT for
specific diagnoses. Three non-Medicare respondents require that the patient have one
of a variety of specific diagnoses, such as Crohn’s disease or enteritis. For other
payers, another circumstance warranting ENT coverage is if a physician declares ENT
medically necessary to maintain the patient’s body weight and general nutritional
status. If the physician’s order in the patient’s medical record states a need for ENT
or if prior authorization is issued, it is covered. An individual medical review for
appropriateness can also be required. In two instances, State law mandated coverage
of ENT for specific diseases. Often, for non-Medicare payers, physician evidence and
documentation for the medical need of the therapy can repeal most coverage
restrictions.




                                                        8€
Non-G@rointminal ReLz&dDimziem

In contrast to Medicare guidelines, just over two-thirds of non-Medicare payers will
cover ENT for patients with a functioning gastrointestinal tract, but still have special
nutritional needs. Three Medicare risk-contracted HMOS classi& ENT as a prosthetic
device, but do cover patients with special nutritional needs. Again, Medicare HMOS
may offer more coverage according to their negotiated contracts. Also, even though
some non-Medicare payers classified ENT as a prosthetic device, they would still cover
the therapy for a person with a functioning gastrointestinal tract. Table 4 below
illustrates this point.




                                            I             I              I             I           II

                                                     1           1’             1             1€

                                      3                          1              1€


                                      1              1€

                                      1              1                         2€




According to the     current Medicare definition of ENT, unless the criteria for a
prosthetic device    benefit is met, patients with cognitive disorders cannot be covered.
Technically, with    a cognitive disorder, the malfunctioning body organ is the brain, not
a gastrointestinal   structure. During this condition, the brain is unable to transmit the



   4Again, note that some payers use dual classification for defining the ENT benefit.
We counted each classification separately.

    5This figure does include the private indemnity/commercial        payer who only covers
the pump and supplies for ENT, not the product.


                                                9€
appropriate neme impulses to direct the activity of other body organs. Cognitive
disorders such as Alzheimer’s Disease or pre-senile dementia can make chewing and
swallowing difficult for a patient with an otherwise functioning gastrointestinal tract.
Defining the therapy under the prosthetic device benefit narrows the scope for its
application to patients with cognitive disorders. The table below shows the number of
payers who routinely cover ENT for patients with cognitive disorders.

                  PAYERS WHO ROUTINELY COVER ENTERAL NUIIUITON€
                      FOR PATIENTS WllH COONITIVE DISORDERS€

Table 5.€




Medicare does not routinely cover patients with cognitive disorders unless very specific
medical evidence can supp&t the need for ENT. Documentation for the patien~s
functional inability to swallow are necessaly. Abnormal results from a swallowing
function test and the absence of a gag reflex (of the muscular reflex contraction in the
throat which enables one to swallow) and additional related laboratory and blood tests
build a case for coverage under the prosthetic device benefit.

The Medicare risk-contracted HMOS do not routinely        cover patients who only have a
cognitive disorder and no digestive track malfunction.    These respondents would make
exceptions to this rule if ENT were the patient’s only   source of nutrition. Additional
documentation of abnormal swallowing function tests      and loss of gag reflex are also
necessa~.

In contrast, almost half of non-Medicare payers would routinely cover ElVI’ for
persons with cognitive disorders. Other additional payers would cover patients with
cognitive disorders as long as the ENT is the patient’s sole source of nutrition, or if
the patient is only able to obtain nutrition through a tube. Some additional
documentation for swallowing tests and severity of the dysfunction are necessary, but
as long as the prima~ physician or physician reviewer deems therapy medically
necessary, it is covered.

Enteral Ni@iion l%qNand      Sqp@es

Pumps may administer ENT for patients whose medical conditions require a calibrated
and timed flow of nutrients. As Table 6 on the following page shows, Medicare policy
requires separate documentation for the pump, while tw~ ‘M&iicare risk-contract~d  -
HMOS automatically cover the pump. In contrast, more than three-quarters of non-
Medicare payers automatically cover the pump when therapy is needed.




                                           10
                      PAYERS WHO AU’17)MATKAUY COVER PUMPS€
                          WITH ENTERAL NUITUTION THERAPY€
Table6.€



   NOTCOVEREDWITHOUT                        q4                           14/186
        SEPARATE
    DOCUMENTATIONFOR
          NEED

Supplies such as tubing and administration kits are necessary for using ENT.
Medicare automatically provides these items with the therapy. Similarly, three
Medicare risk-contracted HMOS and fifteen other payers also follow this coverage
practice.

Cenificates of M&al    Nwedy     and Ikmi@om

Medicare guidelines are explicit in their requirements for documentation for
determining coverage. Medicare policy requires a CMN for ENT coverage. Three
Medicare risk-contracted HMOS do not require a Cm, instead they require a
physician’s prescription. Eleven out of seventeen non-Medicare payers require a letter
of need or CMN for ENT coverage.

In addition to a CMN, more than half of the non-Medicare payers also require a
prescription forthecoverage    of ENT. Those whodonot        initially require aCMN
either require a prescription or allow the patient’s diagnosis or the physician’s order in
the medical chart to suffice.

Medicare not only requires a new CMN for reassessment, but a new CMN must be
revised whenever there is a change in the caloric intake, a change in nutrient products,
and also when there is a need for a pump.

Reassesmenzfw Th?r&l’

Both Medicare and non-Medicare payers require patient reassessment to determine
whether the patient still needs ENT. This reassessment calls for an update on the
beneficiary’s medical condition and a new CMN. The Medicare risk-contracted
HMOS also require periodic assessment for ENT coverage. Their intervals for
reassessment range from monthly to every three months continually.

Almost all non-Medicare respondents require periodic assessment to continue therapy.
The intervals for continued assessment vary from monthly to quarterly. Two payers
call for yearly assessments. Unlike Medicare, non-Medicare payers require on-going
assessment even after 24 months. An update on the patient’s condition is the most
                                                              .
   %is figure includes the private indemnity/commercial      payer who only covers
pumps and supplies for ENT, not the product.

                                            11
common information required. These payers require renewed letters of need or
CMNS on a continuing basis ranging horn every 30 days to 6 months. One non-
Medicare payer reported an interval of one year.

Doammwa        fw   Types of Rtxlucls�

Medicare also has special documentation provisions for the kinds of products that
physicians prescribe. The Medicare risk-contracted HMOS did not speci& that they
use categories of products.

Only one non-Medicare payer’s coverage policy contained a similar distinction for
groups of products. This payer reported that if a physician requests a product not
listed on the “First Line Usage Enteral Nutrition Product Table,” additional
documentation must accompany the physician’s prior authorization request. The extra
information must show the patient experienced “therapeutic failure” with the “First
Line” product or state results of a consultation between the physician and a registered
dietitian. Other payers did not provide information about product distinction.

CWxic Re@emem

Medicare policy requires documentation to justi@ any caloric intake less than 20
calories/kilogram or greater than 35 calories/kilogram per day. The Medicare risk-
contracted HMOS do not have this requirement, while only one non-Medicare payer
requires a minimum number of calories/kilogram per day.

CONCLUSION€

We hope the issues resulting from this report answer HCFA’S request for information
on other payers’ coverage policies for ENT, and will aid HCFA in their effort to revise
and standardize Medicare policy.

Our work is continuing. We will review how other payers price ENT products and
compare their units of pricing, payment mechanisms, and supplier networks to
Medicare’s policy.




                                          12

